<html>
<title> - CALLING ON THE GOVERNMENT OF IRAN TO FULFILL THEIR PROMISES OF ASSISTANCE IN THIS CASE OF ROBERT LEVINSON, THE LONGEST HELD UNITED STATES HOSTAGE IN OUR NATION'S HISTORY; RECOGNIZING THE IMPORTANCE OF THE UNITED STATES-ISRAEL ECONOMIC RELATIONSHIP AND ENCOURAGING NEW AREAS OF COOPERATION; GLOBAL DEVELOPMENT LAB ACT OF 2015, AND ENHANCING OVERSEAS TRAVELER VETTING ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






    CALLING ON THE GOVERNMENT OF IRAN TO FULFILL THEIR PROMISES OF 
  ASSISTANCE IN THIS CASE OF ROBERT LEVINSON, THE LONGEST HELD UNITED 
 STATES HOSTAGE IN OUR NATION'S HISTORY; RECOGNIZING THE IMPORTANCE OF 
  THE UNITED STATES-ISRAEL ECONOMIC RELATIONSHIP AND ENCOURAGING NEW 
AREAS OF COOPERATION; GLOBAL DEVELOPMENT LAB ACT OF 2015, AND ENHANCING 
                     OVERSEAS TRAVELER VETTING ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

           H. Res. 148, H. Res. 551, H.R. 3924 and H.R. 4403

                               __________

                           FEBRUARY 24, 2016

                               __________

                           Serial No. 114-144

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

98-828PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          










                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 148, Calling on the government of Iran to fulfill their 
  promises of assistance in this case of Robert Levinson, the 
  longest held United States hostage in our Nation's history.....     2
  Amendment in the Nature of a Substitute to H. Res. 148 offered 
    by the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and the Honorable 
    Theodore E. Deutch, a Representative in Congress from the 
    State of Florida.............................................     6
H. Res. 551, Recognizing the importance of the United States-
  Israel economic relationship and encouraging new areas of 
  cooperation....................................................    11
H.R. 3924, To establish in the United States Agency for 
  International Development an entity to be known as the United 
  States Global Development Lab, and for other purposes..........    17
  Amendment in the Nature of a Substitute to H. Res. 148 offered 
    by the Honorable Joaquin Castro, a Representative in Congress 
    from the State of Texas......................................    25
H.R. 4403, To authorize the development of open-source software 
  based on certain systems of the Department of Homeland Security 
  and the Department of State to facilitate the vetting of 
  travelers against terrorist watchlists and law enforcement 
  databases, enhance border management, and improve targeting and 
  analysis, and for other purposes...............................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    46
Markup minutes...................................................    47
Markup summary...................................................    49
 
    CALLING ON THE GOVERNMENT OF IRAN TO FULFILL THEIR PROMISES OF 
  ASSISTANCE IN THIS CASE OF ROBERT LEVINSON, THE LONGEST HELD UNITED 
 STATES HOSTAGE IN OUR NATION'S HISTORY; RECOGNIZING THE IMPORTANCE OF 
  THE UNITED STATES-ISRAEL ECONOMIC RELATIONSHIP AND ENCOURAGING NEW 
AREAS OF COOPERATION; GLOBAL DEVELOPMENT LAB ACT OF 2015, AND ENHANCING 
                     OVERSEAS TRAVELER VETTING ACT

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. All right, House Resolution 148. So the 
committee will come to order. Pursuant to notice, we meet today 
to mark up four bipartisan measures, and without objection, all 
members may have 5 days to submit statements for the record and 
extraneous material on any of today's business.
    As all members were notified yesterday, we intend to 
consider today's measures en bloc and so without objection the 
following items previously provided to the Members of the House 
will be considered en bloc and are considered as read.
    First, House Resolution 148, calling on the Government of 
Iran to fulfill their promises of assistance in the case of 
Robert Levinson. Ros-Lehtinen Amendment 31 in the nature of a 
substitute offered on behalf of herself and on behalf of Mr. 
Deutch, which is the text adopted by the Subcommittee on the 
Middle East and North Africa on February 11th.
    And then we have House Resolution 551, recognizing the 
importance of the United States-Israel economic relationship.
    Also, H.R. 3924, the Global Development Lab Act, along with 
the Castro Amendment 218 in the nature of a substitute.
    And lastly, we have H.R. 4403, the Enhancing Overseas 
Traveler Vetting Act.
    [The information referred to follows:] H. Res. 
148 




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. And after recognizing myself and the 
ranking member, Mr. Engel, I will be pleased to recognize any 
member seeking recognition to speak on these measures.
    Let us start with House Resolution 148, calling on the 
Government of Iran to fulfill their promises of assistance. 
This is in the case of Robert Levinson. And I want to thank 
Chairman Ros-Lehtinen for quickly marking this and I thank Mr. 
Deutch for his steadfast dedication to Mr. Levinson's cause.
    This calls on Iran to assist in the case of Bob Levinson. 
Last month four U.S. hostages held by Iran were released as 
part of a prisoner swap. Absent from the celebration was the 
family of Bob Levinson. The father of seven remains the longest 
held U.S. hostage in history and with many unanswered questions 
about his location and current well being, we must continue to 
press the administration to do more.
    In testimony before this committee, Mr. Levinson's son 
highlighted the importance of our maintaining a public focus on 
his father's case. He argued that while one hearing might 
generate some press, we need continued action to keep his 
father's fate at the forefront and frankly, it is hard to 
remember a time when Iran didn't have U.S. citizens in its 
prisons. As Bob's son testified, ``No family should ever have 
to go through what we all are going through.'' So we will 
continue to work to bring Mr. Levinson and other American 
hostages home.
    Then we have House Resolution 551, recognizing the 
importance of the United States-Israel economic relationship, 
Mr. Ted Lieu's bill. And this emphasizes the strong history of 
that economic cooperation and encourages us to build on our 
shared entrepreneurial spirit and drive to collaborate in a 
range of areas from energy to water in terms of offsetting 
drought to agriculture to medicine and to neurotechnology.
    Despite Israel's security threats remaining severe, Tel 
Aviv, once a target of suicide bombers and Scud missiles, is 
now a bustling city of dotcoms and biotechs and mobile 
companies. We can learn much from each other such as to how 
Israel treats and reuses 70 percent of its wastewater for 
agriculture. As a Member from the drought-stricken State of 
California, I certainly see great promise in a partnership with 
Israel that explores ways to conserve water and to desalinate 
water. And I want to thank Representative Lieu for introducing 
this resolution that has strong bipartisan support. I am proud 
to be an original co-sponsor, along with Ranking Member Engel, 
of Ted Lieu's legislation.
    H.R. 4403, Enhancing Overseas Traveler Vetting Act, I 
acknowledge Mr. Heard for his work on this. The Homeland 
Security Committee's Bipartisan Task Force on Combating 
Terrorist and Foreign Fighter Travel highlighted the lack of 
any comprehensive global database of foreign fighter 
identities. The task force found that the U.S. and other 
countries instead rely on a patchwork system for exchanging 
extremist identities and that this weak arrangement, as they 
call it, increases the odds that foreign fighters will be able 
to cross borders undetected.
    This legislation authorizes the Secretaries of the 
Departments of State and Homeland Security to develop open-
source software platforms to vet travelers against terrorist 
watch lists on law enforcement databases. It permits the open-
source software to be shared with foreign governments and 
multi-lateral organizations like INTERPOL. So I thank Homeland 
Security Chairman McCaul for his leadership as well on this 
bill.
    H.R. 3924, the Global Development Lab Act of 2015. This is 
the last bill we consider. Extreme poverty breeds insecurity. 
It undermines the economic security and health interests of the 
United States. Yet, for too long, we have relied upon 
approaches that yield mediocre results. The Lab represents a 
new approach to development. It embraces science and 
technology. It rewards innovation. It utilizes partnerships and 
it opens the door for new ideas from unexpected places. It 
utilizes a pay-for-success model in which a development 
challenge is identified. Proposals are submitted and financing 
is made available after success has been demonstrated. So I 
thank Representative Castro for introducing this important 
bipartisan measure.
    And I now recognize the ranking member for his remarks.
    Mr. Engel. Mr. Chairman, thank you for calling this markup. 
I would note that in the last few weeks the President has 
signed a number of measures into law that this committee 
advanced and that is a real great reflection of the way we work 
across the aisle to get real results. That should always be our 
focus, and I am glad we are going to advance these four 
measures in that vein and keep the committee's work chugging 
along.
    Let me start with Mr. Deutch's resolution. Americans 
breathed a collective sigh of relief when five of our fellow 
citizens were released by Iran earlier this year. But when it 
comes to American citizens being wrongly held, there are 
obviously no partial victories. So the fact that at least two 
more Americans are still missing or detained in Iran means that 
we need to stay laser-focused on getting these people home.
    One of those missing is retired FBI agent Robert Levinson 
and we have mentioned him a great many times with all the 
hearings we have done on Iran. He disappeared in Iran in 2007 
and it has been 5 years since his family has received any 
evidence that he is still alive. As in so many cases, we have 
heard a lot of promises from the Iranian Government that they 
will assist in locating Mr. Levinson. And again, as in so many 
cases, the Iranians have failed to follow through. This is a 
slap in the face to our diplomatic efforts with Iran and it is 
a cruel affront to the Levinson family who have already dealt 
with so much pain and heartbreak. This resolution calls on 
Iran's leaders to live up to their word and help us find Mr. 
Levinson.
    I want to thank Mr. Deutch for offering this measure and 
for his hard work on trying to bring Mr. Levinson home. Mr. 
Levinson is a constituent of his and he has been a tireless 
champion in trying to get him back. I wholeheartedly support 
this resolution and I thank Mr. Deutch for his good work.
    I also support the measure sponsored by Mr. Lieu and Mr. 
Poe which recognizes the importance of the economic ties 
between the United States and our ally, Israel. We often look 
at Israel through a security prism, but our bond with Israel, 
of course, is much more dynamic than that. We have had a free 
trade agreement with Israel for more than three decades. In 
that time, trade between our countries has increased tenfold. 
Our economic ties have been good for both countries, creating 
jobs and driving growth. Over the years, the United States and 
Israel have established a number of institutions to help 
strengthen these ties even further: The U.S.-Israel binational 
Science Foundation, and the Industrial Research and Development 
Foundation, the Agricultural Research and Development Fund.
    This resolution calls for even greater cooperation in 
energy, water, agriculture, medicine, neurotechnology, and 
cyber security. It encourages the administration to hold 
regular, expanded, economic dialogues and to push for more 
private/public partnerships. I am happy to co-sponsor this 
measure and I again thank Mr. Poe and Mr. Lieu for bringing it 
forward.
    Next, let me commend Mr. Castro for his hard work on the 
Global Development Lab Act which will strengthen one of our 
best tools for promoting new innovations in global development 
efforts. A development lab was established within USAID to help 
develop and deploy poverty-reduction technologies more widely 
and at a lower cost. The Lab works with NGOs, corporations, and 
universities to bring in the best ideas to stay on the cutting 
edge of development. It is also expanding USAID's impact 
through a public/private dollar-for-dollar matching program 
that allows us to scale these innovations up without expanding 
USAID's budget.
    We are seeing real results. In 2014, the Lab invested in 
362 new solutions that touched nearly 14 million people around 
the world. For example, the Lab funded an initiative to produce 
more food where fresh water is hard to come by. The securing 
water for food grant challenge led to a system that makes 
seawater or brackish water usable for drinking or agriculture. 
It consumes so little energy that the cost to use it is low, 
even in areas off the power grid. This is what we mean when we 
talk about innovation.
    This bill would build on the Lab's success by creating new 
authorities for the Lab to expand and manage its partnerships. 
It will give the Lab greater flexibility for hiring experts on 
a project-by-project basis and it will allow the Lab to award 
small, targeted grants that have proven so effective in 
supporting healthcare providers.
    I commend Mr. Castro for his hard work on this very good 
bill. It makes a good initiative better and I am pleased to 
support it.
    And lastly, I am pleased that we are taking up the 
Enhancing Overseas Traveler Vetting Act. One of the best ways 
to crack down on violent extremism is to catch terrorists 
trying to cross borders--not just our borders, but borders 
around the world. The bill would allow the State Department and 
the Department of Homeland Security to develop open-source 
software to vet travelers crossing borders and sound the alarm 
if a terrorist is trying to sneak through. That software could 
then be shared with allies, partners, and multilateral 
organizations like the European Union. Existing safeguards 
would ensure that the software is developed in collaboration 
with our intelligence community and that it only gets into the 
right hands. This is an innovative way to help ensure that 
terrorists don't slip through the cracks and I am happy to 
support it.
    Again, thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel. We go to Mr. Smith of 
New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. First of all, 
I would like to thank you, Chairman Royce, and Ranking Member 
Eliot Engel, for marking up these four bipartisan bills and 
especially for marking up H. Res. 148 and I want to thank again 
Ted Deutch for authoring this resolution which keeps the 
spotlight and the pressure on both the administration and Iran 
to resolve the case of missing American Robert Levinson. Robert 
Levinson is now, as you pointed out, the longest held hostage 
in American history. His daughter and son-in-law used to live 
in my district in Monmouth County, along with his six other 
children, numerous grandchildren, as well as his wife, 
Christine. They all desperately await word of his whereabouts.
    Mr. Levinson, as we all know, is a retired FBI agent, who 
disappeared on a business trip to Iran in 2007. His captors 
last released photos and video of him back in 2011. Mr. 
Levinson is elderly, suffers from diabetes, and appeared sickly 
in the last photos in which he was seen. He has been captive 
for almost 9 years and needs to be immediately returned to his 
broken-hearted family. I urge my colleagues to show their 
continued commitment to bringing Mr. Levinson home by 
unanimously supporting this resolution.
    And I ask unanimous consent that my comments on each of the 
other bills pending before the committee be made a part of the 
record.
    Chairman Royce. Thank you, Mr. Smith. Mr. Castro of Texas.
    Mr. Castro. Thank you, Chairman, and thank you for bringing 
my bill, H.R. 3924, for markup today. I want to say thank you, 
first of all, to my co-sponsor, Representative McCaul of 
Austin. Thank you and your staff for all of your hard work as 
well as the staff of the committee. I know there is a lot of 
work that goes into preparing these bills and most of all, 
thank you to USAID for developing the Global Development Lab 
and now working to improve it. It essentially democratizes 
problem solving and crowdsources ideas and applications to 
combat poverty and our greatest poverty challenges throughout 
the world, whether it is access to clean water, access to 
electricity, immunizations, birth defects, any of those gray 
challenges that are faced by many countries throughout the 
world. This makes sure that there is a competition of ideas and 
applications to solve these problems. And so I am very proud of 
the work that USAID has done and very proud also that this is a 
bipartisan bill.
    Thank you, Chairman.
    Chairman Royce. Thank you, Mr. Castro. Mr. McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman. I also want to thank 
my colleagues from Texas, Mr. Castro, for his leadership and 
the staff for working so hard on this. It is important 
legislation. It is bipartisan. The Global Development Lab will 
harness the U.S. entrepreneurial spirit to create cost 
effective, sustainable solutions to global poverty.
    As we have seen time and time again, creating opportunity 
in impoverished countries is a powerful catalyst for our 
foreign policy abroad and as chairman of the House Homeland 
Security Committee, I know that this legislation will help us 
fight terrorism by providing the most vulnerable with the means 
to create a better future for themselves and their loved ones, 
rather than falling victim to the false narrative of extremists 
who prey on the impoverished and who fill these vacuums and 
turn them into safe havens for terrorists.
    So again, I want to thank Mr. Castro for his hard work and 
ask that the committee support passage of this bill.
    Chairman Royce. Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. First, I would like to 
thank you and the ranking member for holding this markup. I 
want to thank Mr. Lieu and Mr. Poe for their important 
reaffirmation of the many ways that the United States and 
Israel both benefit from expanded economic cooperation. I want 
to commend Mr. Castro and Mr. McCaul for the Global Development 
Lab Act and the innovation developed by that Lab which will be 
enhanced and expanded. And I am proud to support the Enhancing 
Overseas Traveler Vetting Act.
    I want to especially thank my friend, Chairman Emeritus 
Ros-Lehtinen, for introducing the Levinson resolution with me 
for the past several years, along with our Florida colleagues, 
Congresswoman Wasserman Schultz and Congressman Diaz-Balart. 
And I thank the many members of this committee who have co-
sponsored this resolution for their continued support and to 
the chairman and ranking member and Mr. Smith and others who 
have spoken powerfully this morning about Bob. Many of you have 
heard me speak of my constituent, Bob Levinson, many times over 
the past 6 years. Today, I will be brief. The recent return of 
our American citizens from Iran brought renewed focus to Bob's 
case. And while we celebrated the joyous reunion of the 
Americans who had been held hostage who were returned home, 
unfortunately, we do not--and the Levinson family has yet to 
feel that same joy.
    Two weeks ago, the Middle East Subcommittee held a markup 
of the resolution where we were joined by Bob's wife, 
Christine, and his eldest son, Dan. By passing this resolution 
today and sending it to the floor of the House, we have the 
opportunity to remind Christine, Dan, and Bob's six other 
children that we won't forget about Bob.
    Mr. Chairman, 9 years is too long. It is too many 
anniversaries. It is too many birthdays, weddings, the births 
of grandchildren for Bob to miss. Bob must come home now. This 
message is resonating from Washington around the country and to 
the community that I proudly represent in South Florida. On 
Saturday, March 5, Bob's own community in South Florida will 
come together for a rally in support of the Levinson family to 
send a united resolute message that Bob must come home. And to 
those around the country watching this at home today, I 
encourage them to Tweet using the #WhatAboutBob to keep Bob's 
name and his story front and center. And by passing this 
resolution, Mr. Chairman, we as Members of the United States 
Congress reaffirm that we will never stop fighting until Bob is 
home with his family.
    I appreciate the support and I yield back.
    Chairman Royce. Thank you. Thank you very much. I 
appreciate that, Mr. Ted Deutch. We now go to Mr. Steve Chabot 
of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief 
because my colleagues have already spoken much better than I 
could about this. I want to commend both Mr. Deutch and Ms. 
Ros-Lehtinen for their unrelenting determination to do 
everything within their power to assist the Levinson family and 
to try to get Bob home. I mean to think 9 days would be a long 
time, 9 weeks, 9 months. It has been 9 years and it is 
incomprehensible how hard this must have been on him and on his 
family. I know the administration has repeatedly called for the 
safe return of Mr. Levinson, but this should always be at the 
forefront of any talks, when we ever talk with Iran, this 
should be discussed, whatever it is. And I would encourage that 
to occur.
    And I would also like to rise in support of H. Res. 551, 
the resolution with respect to U.S.-Israeli economic relations. 
They are obviously one of our strongest--if not our strongest--
allies on this globe and ensuring a comprehensive and 
sustainable alliance and increasing trade ties, economic 
dialogue, this is all for the better, will improve the 
relationship between our two nations which is one of the most 
critical relationships that we have.
    So I want to thank all our colleagues involved in both of 
these and I would like to yield back.
    Chairman Royce. Do any of our Democrat colleagues seek 
recognition at this point?
    We will go to Mr. Mark Meadows of North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
leadership and I would gladly yield the balance of my time to 
the gentleman from Texas, Mr. McCaul.
    Chairman Royce. Mr. McCaul is recognized.
    Mr. McCaul. I thank Mr. Meadows for yielding time, Mr. 
Chairman. Ranking Member, I want to thank you for collaborating 
with my Committee on Homeland Security on H.R. 4403, Enhancing 
Overseas Traveler Vetting Act. It is a bipartisan bill, passed 
unanimous out of my committee. It implements an important 
recommendation of the Task Force on Combat<greek-l>t deg.ing 
Terrorist and Foreign Fighter Travel. The bipartisan panel 
found that many of our foreign partners lack crucial tripwires 
to detect extremists when they are moving across borders. 
Without adequate screening and watchlist systems, these 
countries are letting jihadists slip through their fingers. 
This puts America and our allies at risk. We cannot allow 
foreign fighters to crisscross the globe undetected. This 
legislation will help our most vulnerable partners put in place 
vetting systems quickly, rather than taking years to develop 
their own. We must shut down the jihadi superhighway to and 
from terrorist safe havens overseas and this bill that we are 
considering will help do exactly that.
    I commend also Representative Heard who is on the task 
force for writing this legislation and I urge my colleagues 
here on the Foreign Affairs Committee to support it. With that, 
I yield back.
    Chairman Royce. Thank you, Mr. Mike McCaul. Do any other 
members seek recognition? Hearing none, the question occurs on 
the items considered en bloc.
    All those in favor, say aye?
    No, for those opposed?
    In the opinion of the Chair the ayes have it and the 
measures considered en bloc are agreed to. Without objection, 
the measures considered en bloc are ordered favorably reported 
as amended. And staff is directed to make any technical and 
conforming changes.
    Also without objection, the Chair is authorized to seek 
House consideration of those measures under suspension of the 
rules. And that concludes our business for today. I want to 
thank Ranking Member Eliot Engel and all of our committee 
members for their contributions and their assistance to today's 
markup. The committee stands adjourned.
    [Whereupon, at 10:27 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         
                                 [all]


</pre></body></html>
